Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   MEDICARE PAYMENTS FOR 

   FACET JOINT INJECTION 

         SERVICES





                    Daniel R. Levinson

                     Inspector General 


                     September 2008

                     OEI-05-07-00200

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVES
                  1.	 To determine the extent to which Medicare Part B payments for
                      facet joint injections meet Medicare program requirements.

                  2.	 To determine what policies and safeguards exist to ensure that
                      Medicare Part B payments for facet joint injections meet Medicare
                      program requirements.


                  BACKGROUND
                  Medicare Part B payments for facet joint injections have increased from
                  $141 million in 2003 to $307 million in 2006. Over the same period, the
                  number of Medicare claims for facet joint injections increased by
                  76 percent.

                  Facet joints are joints in the spine that aid stability and allow the spine
                  to bend and twist. Facet joint injections are a type of interventional
                  pain management technique used to diagnose or treat back pain. Two
                  primary codes, 64470 and 64475, are used to bill a single injection in the
                  cervical/thoracic or lumbar/sacral areas of the spine, respectively. Each
                  primary code has an associated add-on code for use when injections are
                  provided at multiple spinal levels. Unilateral injections are performed
                  on one side of the joint level, while bilateral injections are performed on
                  the right and left side of the joint level. The Centers for Medicare &
                  Medicaid Services (CMS) requires physicians to indicate a bilateral
                  injection by using billing modifier 50. Physicians typically perform facet
                  joint injections using radiological guidance to ensure correct needle
                  placement and avoid nerve or other injury. Medicare Part B carriers
                  are responsible for implementing program safeguards for these services.

                  We conducted a medical record review of a stratified random sample of
                  646 facet joint injection services performed in 2006. In addition, we
                  interviewed staff from the 15 carriers that processed Medicare Part B
                  claims in 2006 and reviewed their program safeguards for facet joint
                  injections.


                  FINDINGS
                  Sixty-three percent of facet joint injection services allowed by
                  Medicare in 2006 did not meet Medicare program requirements,
                  resulting in approximately $96 million in improper payments.
                  Medicare allowed an additional $33 million in improper payments for


OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   i
E X E C U T I V E                       S U          M M A R Y


                   associated facility claims. Thirty-eight percent of facet joint injection
                   services had a documentation error and 31 percent had a coding error.
                   For services that had a coding error, just over 60 percent were overpaid
                   because physicians incorrectly billed additional add-on codes to
                   represent bilateral facet joint injections instead of using modifier 50.
                   Eight percent of services had a medical necessity error. Fourteen
                   percent of services had one or more overlapping errors.

                   Facet joint injection services provided in an office were more likely to
                   have an error than those provided in an ambulatory surgical center or
                   hospital outpatient department.
                   In 2006, most carriers had policies and safeguards for facet joint
                   injection services but they identified limits to using these
                   safeguards. Local coverage determinations (LCD) and claims
                   processing edits are carriers’ primary tools to protect Medicare
                   payments for facet joint injections. Thirteen of fifteen carriers had
                   LCDs for facet joint injections. Of carriers with LCDs, 10 had at least
                   one active edit.

                   Carrier staff identified two complexities in creating frequency limits for
                   facet joint injections. First, the lack of consensus in the medical
                   community about appropriate frequency of injections is a barrier to
                   creating frequency limits in LCDs. Second, frequency edits for facet
                   joint injections are difficult to automate because many require
                   information that is not currently available on Medicare claims.


                   RECOMMENDATIONS
                   Based on the results of our review, CMS should:

                   Strengthen program safeguards to prevent improper payment for
                   facet joint injection services. CMS should assist carriers in developing
                   ways to scrutinize physician claims for facet joint injection services
                   provided in an office setting. CMS should also encourage carriers that
                   require radiographic imaging guidance in their LCDs to implement
                   automated edits for imaging guidance. Finally, CMS should direct
                   carriers to revisit frequency limits in their LCDs and update them so
                   that they are as effective as possible.
                   Clarify billing instructions for bilateral services. CMS should clarify
                   billing instructions for bilateral services and recover funds if
                   appropriate. Correct use of add-on codes and modifier 50 could result in
                   cost savings.

 OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   ii
E X E C U T I V E                          S U           M M A R Y




                  Take appropriate action regarding the undocumented, medically
                  unnecessary, and miscoded services identified in our sample. We
                  have forwarded information on these services to CMS.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS described steps that it will take to address our recommendation to
                  strengthen program safeguards for facet joint injection services. CMS
                  agreed with our recommendations to clarify billing instructions for
                  bilateral services and to take appropriate action on services paid in
                  error in our sample.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Sixty-three percent of services did not meet requirements . . . . . . 11 


                    Carriers had safeguards but identified limits to using them . . . . 15 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                    Agency Comments and Office of Inspector General Response . . . 20 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                    A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                    B: Confidence Intervals for Selected Estimates . . . . . . . . . . . . . . 25 


                    C: Specialty Error Rate in an Office Setting for Sample . . . . . . . 27 


                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31 

Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1.	 To determine the extent to which Medicare Part B payments for
                      facet joint injections meet Medicare program requirements.

                  2.	 To determine what policies and safeguards exist to ensure that
                      Medicare Part B payments for facet joint injections meet Medicare
                      program requirements.


                  BACKGROUND
                  According to one source, chronic pain affects more adults in the United
                  States than diabetes, heart disease, and cancer combined.1 Treatment
                  varies depending on the type of pain and can range from noninvasive to
                  invasive procedures. Medicare paid over $2 billion in 2006 for
                  interventional pain management procedures.2 Examples of
                  interventional pain management procedures include: injections, nerve
                  blocks, and spinal cord stimulation.

                  From 2003 to 2006, the number of Medicare claims for facet joint
                  injections, an interventional pain management procedure, increased by
                  76 percent.3 Overall, payments for facet joint injections increased from
                  $141 million in 2003 to $307 million in 2006.4 These payments
                  represent both physician and facility payments. They account for
                  approximately 15 percent of Medicare payments for interventional pain
                  management services in 2006.

                  In addition to an increase in Medicare payments, a number of recent
                  investigations by the Federal Bureau of Investigations (FBI) and the
                  Office of Inspector General (OIG) have found inappropriate activity
                  related to facet joint injections and other types of pain management. In
                  one joint FBI-OIG case, an Ohio physician was convicted of multiple



                      1 American Pain Foundation. “Pain Facts & Figures.” (2007). Available online at
                  http://www.painfoundation.org/page.asp?file=Newsroom/PainFacts.htm. Accessed on
                  May 3, 2007.
                      2 Estimate based on OIG analysis of interventional pain management procedure codes in
                  the 2006 100-percent National Claims History (NCH) outpatient and physician/supplier
                  files.
                     3 Estimate based on OIG analysis of facet joint injection procedure codes in the following
                  Medicare claims files: (1) 2003 1-percent sample of NCH outpatient and physician/supplier
                  files, and (2) 2006 100-percent NCH outpatient and physician/supplier files.
                      4 Ibid.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S        1
I N T R O D       U C T               I O N 





                  counts of health care fraud for interventional pain management
                  procedures, including facet joint injections.5
                  Facet Joint Injections
                  Facet joints are joints in the spine that aid stability and allow the spine
                  to bend and twist. Facet joints are located between each vertebra in the
                  spinal column. See Figure 1 for an illustration of cervical facet joints.
                  There are 25 levels of facet joints in the spine that are divided, from top
                  to bottom, into cervical, thoracic, lumbar, and sacral regions.6 Each
                  level has a pair of facet joints, one facet joint on the right and one on the
                  left side of the spine.


                                                         Figure 1. Cervical Facet Joints




                                                         Source: The Pain Clinic. Available online at
                                                         www.painclinic.org. Accessed on October 9, 2007.



                  Facet joint injections are a type of interventional technique used to
                  diagnose or treat back pain. For some people with chronic pain due to a
                  facet joint injury, injections of an anesthetic or steroid into a facet joint

                      5 U.S. Department of Justice, U.S. Attorney’s Office, Northern District of Ohio
                  (June 9, 2006). Press release. Available online at
                  http://www.usdoj.gov/usao/ohn/news/09June2006_2.html. Accessed on March 18, 2008.
                    6 The Pain Clinic. “Facet Joint Injections.” (n.d.) Available online at
                  http://www.painclinic.org/treatment-facetjointinjections.htm. Accessed on March 19, 2008.



OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S        2
I N T R O D       U C T               I O N 





                  help reduce inflammation and relieve pain. Figure 1 shows a unilateral,
                  single-level injection into the C5-C6 facet joint level. Unilateral
                  injections are performed on one side of the joint level, while bilateral
                  injections are performed on the right and left side of the joint level.
                  Frequency of injections. The frequency of facet joint injections varies for
                  diagnostic and therapeutic injections. For a diagnostic injection, a
                  physician injects a numbing medicine and/or a steroid into one or two
                  suspect facet joints.7 The amount of immediate relief experienced by a
                  patient will help confirm or reject the joint as the source of pain. For a
                  therapeutic injection, a physician injects a numbing medicine and/or a
                  steroid into one or more facet joints to reduce inflammation.8 Typically,
                  a physician performs a diagnostic injection once, whereas therapeutic
                  injections might be performed repeatedly for ongoing pain relief.
                  Radiographic guidance. Facet joint injections are typically performed
                  using radiological guidance (radiographic guidance or live x-ray) to
                  ensure correct needle placement and avoid nerve or other injury.
                  Sometimes, a physician performs the procedure without radiological
                  imaging, which is referred to as a “blind” injection. One study of these
                  “blind” injections concluded that facet joint injections should not be
                  performed without the aid of radiological imaging because of potential
                  risk to the patient and lack of diagnostic accuracy.9
                  Setting and specialty. Facet joint injections may be performed in a
                  variety of settings. In 2006, approximately 60 percent of facet joint
                  injections were performed in an office setting, 20 percent in an
                  ambulatory surgical center (ASC), and 20 percent in a hospital
                  outpatient setting.10 In 2006, over 220,000 Medicare beneficiaries
                  received a facet joint injection in one of these three settings.11
                  Different physician specialties perform facet joint injections. In 2006,
                  anesthesiologists, pain management specialists, and physiatrists


                    7 M. Boswell, et al. (2007). “A Systematic Review of Therapeutic Facet Joint
                  Interventions in Chronic Spinal Pain.” Pain Physician, 10, pp. 229–253.
                      8 Ibid.
                      9 G. Purcell-Jones, et al. (1989). “Paravertebral Somatic Nerve Block: A Clinical,
                  Radiographic, and Computed Tomographic Study in Chronic Pain Patients.” Anesthesia &
                  Analgesia, 68(1), 32-9.
                    10 Estimate based on OIG analysis of facet joint injection procedure codes in the 2006
                  NCH Medicare Part B physician/supplier file for amounts greater than $15 for ASC, office,
                  and hospital outpatient department.
                      11 Ibid.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S        3
    I N T R O D               U C T               I O N


                         performed approximately 64 percent of Medicare facet joint injections,
                         while general practitioners, internal medicine physicians, and family
                         practice physicians performed 19 percent. Other types of physicians
                         performed the remaining 16 percent, including orthopedic surgeons,
                         neurologists, and rheumatologists.12
                         Medicare Program Requirements for Facet Joint Injections
                         General provisions of the Social Security Act (the Act) govern Medicare
                         reimbursement for all services, including facet joint injections. Section
                         1862(a)(1)(A) of the Act states that Medicare will cover only services
                         considered to be reasonable and necessary.13 Reasonable and necessary
                         items are those used in the diagnosis or treatment of illness or to
                         improve the functioning of a malformed body part. Further, section
                         1833(e) of the Act states that payment is made only when a provider has
                         furnished appropriate information about the service for the processing
                         of the claim.14
                         Medicare requires that providers report services using uniform
                         procedure codes.15 The Current Procedural Terminology (CPT) codes
                         and descriptions for facet joint injections are listed in Table 1. Two
                         primary codes, 64470 and 64475, are used for a single injection in the
                         cervical/thoracic or lumbar/sacral areas of the spine, respectively. Each
                         primary code has an associated add-on code for use when more than one
                         injection is provided in an area. The add-on codes are 64472
                         (cervical/thoracic) and 64476 (lumbar/sacral).

Table 1: Facet Joint Injection CPT Codes and Descriptions

CPT Code              Description
64470                 Injection; Paravertebral facet joint or facet joint nerve; cervical/thoracic, single level
64472 (add-on)        Injection; Paravertebral facet joint or facet joint nerve; cervical/thoracic, each additional level
64475                 Injection; Paravertebral facet joint or facet joint nerve; lumbar/sacral, single level
64476 (add-on)        Injection; Paravertebral facet joint or facet joint nerve; lumbar/sacral, each additional level
Source: American Medical Association CPT descriptions, 2006.




                           12 OIG analysis of 2006 NCH Medicare Part B facet joint injection claims. Total does not
                         sum to 100 percent because of rounding.
                             13 Social Security Act § 1862(a)(1)(A), 42 U.S.C. § 1395y.
                             14 Social Security Act § 1833(e), 42 U.S.C. § 13951.
                             15 Section 1848(c)(5) of the Act required the Secretary of the Department of Health and
                         Human Services to develop a uniform coding system for all physician services. The
                         American Medical Association’s CPT is a numeric coding system for physicians’ services.



  OEI-05-07-00200        M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S               4
I N T R O D        U C T               I O N



                   The “National Correct Coding Initiative Policy Manual” for Medicare
                   Services (NCCI manual) outlines national correct coding guidelines for
                   CPT codes.16 The NCCI manual states that providers should use the
                   CPT codes that most comprehensively describe the services performed.
                   The only specific references to facet joint injection codes in the NCCI
                   manual relate to management of acute postoperative care. No guidance
                   exists for facet joint injection codes outside of postoperative care.

                   The NCCI manual and the “Medicare Claims Processing Manual”
                   require that physicians use modifiers to indicate when a service differs
                   from the CPT definition. Modifiers are two-digit codes billed in
                   conjunction with the CPT code. Up to two modifiers are allowed for
                   each CPT code on a claim.
                   Medicare Part B Payments for Facet Joint Injections
                   Medicare reimburses physicians and facilities for facet joint injections
                   according to the Medicare Physician Fee Schedule and Medicare Facility
                   Payment Rates, respectively.17
                   Physician payments. The Medicare Physician Fee Schedule includes two
                   types of fees, based on setting: those paid to physicians for services
                   rendered in nonfacilities, such as their offices; and those paid to
                   physicians for services rendered in facilities, such as ASCs and hospital
                   outpatient departments. Physician fee schedule payments for office
                   services are generally higher than physician fee schedule payments for
                   facility services because they include payment for practice expenses
                   such as building costs, salaries, and equipment. Fee schedule amounts
                   are adjusted to account for geographic location. The base physician fee
                   schedule rates for facet joint injections in 2006 are listed in Table 2.

                  Table 2: Medicare Physician Fee Schedule Base
                  Rates, 2006
                  CPT Code                                          Office                                Facility
                  64470                                          $349.04                                  $101.19
                  64472 (add-on)                                 $140.60                                   $64.80
                  64475                                          $318.72                                   $81.10
                  64476 (add-on)                                 $120.51                                   $48.89
                  Source: Medicare Physician Fee Schedule, 2006.




                    16 Centers for Medicare & Medicaid Services (CMS) “NCCI Policy Manual for Part B
                   Medicare Carriers,” Version 12.3, Introduction, pages viii–9 (October 1, 2006).
                    17 Section 1848(a)(1) of the Act established the physician fee schedule as the basis for
                   Medicare reimbursement for all physician services beginning in January 1992.



OEI-05-07-00200    M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S              5
I N T R O D         U C T               I O N



                    Reimbursements for primary codes 64470 and 64475 are higher because
                    they include presurgical and postsurgical expenses related to the
                    procedure that the add-on codes, 64472 and 64476, do not.

                    Physician payments also vary based on modifiers billed with the CPT.
                    For example, bilateral facet joint injections, which are performed on
                    both the right and left side of a level, should be billed using
                    modifier 50, which increases reimbursement to 150 percent of the base
                    rate.18 If a physician performs multiple bilateral injections, modifier
                    50 should accompany each facet joint injection CPT code.
                    Facility payments. Medicare reimburses ASCs and hospital outpatient
                    departments for their expenses separately from the payments made to
                    physicians for rendering services in these settings. Medicare facility
                    payment rates for ASCs and hospital outpatient departments are based
                    on ASC payment groups and the outpatient prospective payment
                    system, respectively. Facility payment rates are adjusted to account for
                    geographic location. The base facility payment rates for facet joint
                    injections in 2006 are listed in Table 3.

                  Table 3: Medicare Facility Base Payment Rates,
                  2006
                  CPT Code                                                ASC           Hospital Outpatient
                  64470                                                   $333                             $357.90
                  64472 (add-on)                                          $333                             $321.42
                  64475                                                   $333                             $357.90
                  64476 (add-on)                       $333                $321.42
                  Source: Ambulatory Surgical Center Approved Healthcare
                  Common Procedural Coding System (HCPCS) Codes and Payment
                  Rates, 2006, and Hospital Outpatient Prospective Payment Rates,
                  2006.


                    Claims Processing and Program Safeguards
                    CMS contracts with private organizations, called carriers, to process
                    and pay Medicare Part B claims. In 2006, CMS contracted with
                    15 carriers to process Medicare Part B claims in the 50 States, the
                    District of Columbia, and U.S. territories.

                    Carriers are also responsible for implementing program safeguards to
                    reduce payment errors. To accomplish this, carriers create local
                    coverage determinations (LCD), issue instructional articles, and




                        18 CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, ch. 12, § 40.7.




OEI-05-07-00200     M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S             6
I N T R O D       U C T               I O N 





                  implement claims processing edits. Carriers also analyze data, conduct
                  provider education, and conduct medical reviews.
                  Local coverage determinations. Because no National Coverage
                  Determination19 exists for facet joint injections, carriers may develop
                  their own local coverage guidelines called LCDs. The LCDs describe
                  whether services are reasonable and necessary and therefore covered by
                  Medicare. They also provide additional guidance to physicians about
                  specific services.

                  The LCDs vary by carrier and may result in different coverage in
                  different parts of the country. They generally cover the following topics:
                  •      indications and limitations of coverage and medical necessity,

                  •      covered diagnosis codes supporting medical necessity,

                  •      documentation requirements, and

                  •      utilization guidelines.
                  Claims processing edits. Carriers may implement automated electronic
                  edits to prevent improper payments.20 These edits are coded system
                  logic that automatically pay all or part of a claim, deny all or part of a
                  claim, or suspend all or part of the claim for manual review. Carriers
                  must have an LCD to implement their own local edits.

                  CMS requires carriers to evaluate local prepayment edits annually for
                  effectiveness. CMS considers an edit effective when it has a reasonable
                  rate of denial relative to suspensions, a reasonable dollar return on the
                  cost of operation, or potential to avoid significant risk to beneficiaries.

                  Carriers also implement CMS-wide edits where appropriate. In 2007,
                  CMS implemented Medically Unlikely Edits (MUE). CMS created
                  MUEs to reduce the Medicare fee-for-service paid claims error rate.21
                  Carriers deny the entire service when the billed units of service exceed
                  MUE criteria.22 CMS bases the MUE criteria on data for past periods,
                  clinical judgment of CMS health care professionals, and comments from



                      19 National Coverage Determinations, issued by CMS, govern how Medicare will cover
                  specific services, procedures, or technologies at a national level.
                      20 CMS “Medicare Program Integrity Manual,” Pub. No. 100-08, ch. 3, § 3.5.
                      21 CMS “Medicare Claims Processing Manual,” Pub. 100-04, Quarterly Update to
                  Medically Unlikely Edits, Version 2.1, transmittal 1265.
                      22 Ibid.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S     7
I N T R O D       U C T               I O N




                  the health care community.23 Currently, CMS has an active MUE for
                  facet joint injection services establishing an upper limit for the number
                  of services a physician can bill.24


                  METHODOLOGY
                  To determine the extent to which facet joint injection services meet
                  Medicare requirements, we: (1) conducted a medical record and coding
                  review of a stratified random sample of allowed physician claims for
                  Medicare Part B facet joint injection services in 2006, (2) reviewed CMS
                  and carrier policies, and (3) conducted structured telephone interviews
                  with carrier staff.
                  Sample Selection
                  The population from which we sampled consisted of all allowed
                  physician services in the CMS NCH file for CPT codes 64470, 64472,
                  64475, and 64476 performed in 2006. We excluded services with
                  allowed amounts less than $15 to avoid performing a medical record
                  review on low dollar claims.25 The population consisted of
                  approximately 1 million services and $203 million in allowed physician
                  payments. From this population, we selected a random sample of
                  660 physician line item claims26 stratified by place of service and
                  Medicare-allowed amount. See Appendix A for further detail on the
                  sample selection, data collection, and data analysis.
                  Data Collection
                  After excluding 6 services from the 660 in our sample because of
                  ongoing investigations by OIG, we requested, by mail, complete medical
                  records from physicians for 654 sampled services. We classified
                  providers for eight services as nonresponders.27 Thus, we based our
                  review on the remaining 646 line items. This represents a 99-percent
                  response rate.


                    23 CMS MUE Project. Available online at
                  http://www.cms.hhs.gov/MedicalReviewProcess/Downloads/MUECHARTER.pdf. Accessed
                  on February 20, 2008.
                    24 To protect MUE effectiveness, CMS prohibits specific MUE limits from being
                  published.
                      25 These services represent less than 1 percent of the population.
                      26 Multiple line items may be billed on a single claim. Hereinafter, line items will be
                  referred to as services.
                    27 A nonresponder is defined as a provider with whom no successful contact has been
                  made after at least three written contacts and two phone calls.



OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S          8
I N T R O D       U C T               I O N 





                  We also reviewed 15 carrier LCDs for facet joint injections. We then
                  conducted 15 structured telephone interviews with carrier staff
                  regarding policies and safeguards for facet joint injection services. We
                  conducted one interview per carrier with the carrier medical director
                  and support staff. We conducted these interviews between October and
                  December 2007.
                  Medical record review. We used a contractor to conduct the medical
                  record review. The reviewers included five board-certified physicians
                  with pain management and facet joint injection experience and one
                  certified professional coder. One physician and the coder reviewed each
                  of the medical records. The physician determined whether the service
                  was adequately documented and medically necessary, while the coder
                  determined the appropriate CPT code and modifier(s) for the service.
                  Data Analysis
                  We analyzed the results from the medical record review to determine
                  the percentage of physician services that did not meet Medicare
                  program requirements. We also calculated the projected physician
                  dollars paid in error for these services. We then compared physician
                  office error rates to facility (ASC and hospital outpatient) error rates.
                  For our facility error rate, we combined ASC and hospital outpatient
                  services, hereinafter referred to as facility. We did not compare ASC
                  and hospital outpatient separately due to small sample sizes. Finally,
                  when possible, we used the NCH files containing ASC and hospital
                  outpatient department facility payments to match to the associated
                  physician service. We projected the identified facility dollars paid in
                  error.

                  We analyzed all carrier interviews and classified their responses. In
                  particular, we counted the number and type of edits each carrier had in
                  place in 2006. We also noted common themes in the interviews. Finally,
                  we reviewed all carrier LCDs for facet joint injections and assessed their
                  similarities and differences.
                  Comprehensive Error Rate Testing
                  CMS established the Comprehensive Error Rate Testing (CERT) to
                  calculate the Medicare fee-for-service paid claims error rate. As of 2007,
                  the CERT has not reported any specific information about facet joint
                  injection services. This review was not designed to reproduce or to review
                  CERT findings.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   9
I N T R O D       U C T               I O N



                  Limitations
                  Because we did not stratify our sample by carrier, we were not able to
                  calculate medical review error rates by carrier. Therefore, we were
                  unable to assess whether carrier program safeguards had an impact on
                  error rates.
                  Standards
                  Our review was conducted in accordance with the “Quality Standards
                  for Inspections” issued by the President’s Council on Integrity and
                  Efficiency and the Executive Council on Integrity and Efficiency.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   10
   Δ       F I N D I N G S



Sixty-three percent of facet joint injection services         Medicare allowed approximately
          allowed by Medicare in 2006 did not meet            $96 million in improper payments
      Medicare program requirements, resulting in             to physicians for facet joint
                                                              injection services in 2006. These
  approximately $96 million in improper payments
                                                              improper payments represent
                         47 percent of the $203 million physician payments for facet joint
                         injections in 2006.

                         Medicare allowed an additional $33 million in improper payments for
                         associated facility claims. While the focus of this review is on physician
                         claims, we also calculated facility claims that were submitted for the
                         physician claims paid in error to provide additional context. The
                         remaining analysis focuses on physician claims only.

                         Sixty-three percent of facet joint injection services did not meet
                         Medicare requirements. Table 4 provides a breakdown of error rates
                         and associated payments for physician claims by error type. Confidence
                         intervals for projected error rates and payments are in Appendix B.


                              Table 4: Improperly Paid Medicare Facet Joint Injection Services—
                              Physician Claims, 2006

                                                                                            Sample                              Projected
                                                                                                           Allowed                          Allowed
                             Type of Error                                   Services                                    Services
                                                                                                           Amount                           Amount
                             Documentation                                          196                   $35, 835          38%        $81 million
                             Coding                                                 173                    $11,670          31%        $21 million
                             Medical Necessity                                        43                        $7,394       8%        $17 million

                             (Overlapping Errors)                                   (71)                ($12,247)          (14%)      ($23 million)

                                Total                                               341                  $42,651*           63%       $96 million
                          Source: OIG analysis of medical review results, 2008.
                          * Numbers do not sum to total because of rounding.




                         Thirty-eight percent of facet joint injection services had a documentation
                         error
                         Medicare allowed approximately $81 million for physician services that
                         were either undocumented or insufficiently documented. Although
                         some cases of missing documentation may be due to errors, others may
                         represent services not rendered. Claims for services that lack sufficient




       OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S                                     11
F   I N D I N G        S



                  documentation to show that care was provided do not meet Medicare
                  program requirements.28
                  Twenty-seven percent of facet joint injection services were undocumented.
                  Medicare allowed approximately $59 million for undocumented facet
                  joint injection services. For the majority of these services, physicians
                  submitted no medical records for the sampled services. For the
                  remaining services, a record was submitted but contained no
                  documentation of the sampled services.

                  Eleven percent of facet joint injection services were insufficiently
                  documented. Medicare allowed approximately $22 million for
                  insufficiently documented facet joint injections. The majority of records
                  for these services were missing a description of the procedure that was
                  billed. Others had a procedure note, but were missing details of the
                  procedure, such as which levels and sides of the back were injected. In
                  each case, the physician reviewer concluded there was insufficient
                  documentation to support the service.
                  Thirty-one percent of facet joint injection services had a coding error
                  Medicare allowed approximately $21 million in overpayments, net of
                  underpayments, to physicians for facet injection services that physicians
                  billed with codes that did not accurately reflect the service described in
                  the medical record. Approximately 79 percent of miscoded services
                  affected payment; 82 percent were overpayments and 18 percent were
                  underpayments. See Appendix B for the dollars associated with
                  overpayments and underpayments.

                  Just over 60 percent of the overpaid services were instances in which the
                  physician billed incorrectly for bilateral facet joint injections. Of the
                  miscoded services that were overpaid, 61 percent were instances in
                  which the physician incorrectly billed CPT add-on codes to represent
                  bilateral facet joint injections instead of using modifier 50. Specifically,
                  they billed multiple lines of CPT add-on codes 64472 or 64476 in
                  addition to a primary code. Physicians should use add-on codes to
                  represent additional levels of the back injected, not sides. As previously
                  noted, the NCCI manual and “Medicare Claims Processing Manual”
                  require that physicians use modifiers to indicate when they are billing
                  for bilateral facet joint injection services. For example, a physician
                  billing two add-on codes to represent a bilateral service receives


                      28 Social Security Act § 1833(e); 42 U.S.C. § 13951(e).




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   12
F   I N D I N G        S



                  200 percent of the base payment when he or she should receive
                  150 percent of the base payment. Billing add-on codes to represent
                  bilateral injections results in a 50-percent higher net payment than
                  Medicare should have allowed.

                  Physicians may have accidentally billed some of these miscoded services
                  because of confusion about appropriate coding rules. Other miscoded
                  services may have been intentionally exploited for higher payment.
                  Additional investigation would be needed to distinguish accidental
                  errors from potentially fraudulent activity.

                  All of the underpayments in our sample were for bilateral facet joint
                  injections for which the provider only billed for unilateral services. All
                  29 of the underpaid services in our sample were bilateral facet joint
                  injections for which the provider billed only for unilateral services,
                  resulting in a 50-percent underpayment.29
                  Eight percent of facet joint injection services had a medical necessity error
                  Medicare allowed approximately $17 million to physicians for facet joint
                  injection services that medical reviewers determined were medically
                  unnecessary. In many instances, reviewers indicated that the record
                  did not contain any patient history or physical exam to show that the
                  treatment was medically indicated for the patient. In other instances,
                  reviewers noted that the record was missing imaging studies to support
                  the diagnosis and justify facet joint injections as the treatment.
                  Facet joint injection services provided in an office were more likely to have
                  an error than those provided in a facility
                  Seventy-one percent of facet joint injection services provided in an office
                  had some type of error, compared to 51 percent of facet joint injection
                  services provided in a facility. See Table 5 on the following page for
                  error rates by setting and error type.




                      29 Statement is based only on the sample and not on a projection to the population.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S      13
F   I N D I N G                S           




                                          Table 5: Error Rate by Setting and Error Type for Medicare
                                          Facet Joint Injection Services—Physician Claims, 2006

                                         Type of Error                                                       Office            Facility
                                         Documentation*                                                           49%              22%
                                         Coding                                                                   30%              32%
                                         Medical Necessity                                                        10%               5%

                                         Any Error*                                                              71%**             51%
                                      Source: OIG analysis of medical review results, 2008.
                                      * Statistically significant at the 95-percent confidence level.

                                      ** Numbers do not sum to total because of overlapping errors. 





                          In addition, certain physician specialties in our sample had high error
                          rates in an office setting.30 See Table 6 for physician specialty error
                          rates in an office setting for our sample. For a complete list of specialty
                          error rates in an office setting for our sample, see Appendix C.

                  Table 6: Physician Specialty Error Rate in an Office Setting for Sample

                                                                                                                                               Percentage of
                                                                                                                                               Services With
                                                                Specialty                                                                           an Error
                  Specialty**                                      Code                   Any Error in Office*           Services in Office*        in Office
                  General Practice                                       01                                       36                      37            97%
                  Internal Medicine                                      11                                       13                      15            87%
                  Family Practice                                        08                                        7                       9            78%
                  Neurology                                              13                                        8                      11            73%
                  Rheumatology                                           66                                        5                       7            71%
                  Orthopedic Surgery                                     20                                        9                      14            64%
                  Anesthesiology                                         05                                       30                      48            63%
                  Pain Management                                        72                                       14                      25            56%
                  Physical Medicine and
                                                                         25                                        8                      15            53%
                  Rehabilitation
                  Source: OIG analysis of medical review results, 2008.
                  * Figures are based only on the sample and are not projected to the population.
                  ** Only specialties with sample frequency equal to or greater than five are shown here.




                              30 Statement is based only on the sample and not on projection to the population.




OEI-05-07-00200           M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S                                     14
  F   I N D I N G              S           





        In 2006, most carriers had policies and                 The LCDs and claims processing
safeguards for facet joint injection services but               edits are carriers’ primary tools to
they identified limits to using these safeguards                protect Medicare payments for
                                                                facet joint injections. Carrier
                                                                staff, however, identified limits to
                          using LCDs and edits to safeguard these services. Carrier staff reported
                          minimal use of other safeguards for facet joint injections.
                          Almost all carriers had an LCD and at least one edit for facet joint injections
                          In 2006, 13 of 15 carriers had LCDs for facet joint injections. Of carriers
                          with an LCD, 10 had at least one active edit. Table 7 illustrates the
                          safeguards each carrier had in 2006 for facet joint injection services.



             Table 7: Carrier Safeguards for Facet Joint Injection Services in 2006


                                                                                        Claims Processing Edits
                                                                                                          Edits for
                                                             Edits for                   Edits for    Radiographic
            Carrier                        LCD              Diagnosis                  Frequency         Guidance     Edits–Other
            1                                  U                          U
            2
            3                                  U                          U                          U           U            U
            4                                  U
            5                                  U                          U                          U
            6                                  U                          U
            7                                  U
            8                                  U                          U                          U                        U
            9                                  U                          U                                                   U
            10                                 U
            11                                 U                          U
            12                                 U                          U                                                   U
            13                                 U                          U                          U                        U
            14                                 U                          U                                                   U
            15

                Total                          13                         10                          4          1             6
          Source: OIG interviews and document review, 2007.




                          Local coverage determinations. Specific guidelines in LCDs varied by
                          carrier. For example, 13 carriers considered facet joint injections to be
                          medically necessary for patients with certain diagnosis codes; however,
                          the number of acceptable diagnosis codes varied by carrier from 3 to 38.

   OEI-05-07-00200        M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S                      15
F   I N D I N G        S



                  Despite the variation in acceptable diagnosis codes, some commonalities
                  in the guidelines exist. Seven of the LCDs describe radiographic
                  guidance as part of the standard of care for facet joint injections and
                  require that providers use radiographic guidance for this service. In
                  addition, six of the LCDs restrict providers from performing other
                  interventional pain management procedures in the same anatomical
                  region on the same day as a facet joint injection. Eight LCDs include
                  frequency guidelines for diagnostic and therapeutic facet joint
                  injections.
                  Claims processing edits. Ten carriers implemented automated
                  electronic edits to enforce the guidelines established by their LCDs.
                  Carriers most commonly used the diagnosis edit, which automatically
                  checks to ensure that physicians bill an acceptable diagnosis code for
                  facet joint injections. Four carriers used frequency edits, which deny or
                  flag claims that exceed a limit for facet joint injections established by
                  the LCD.

                  While half of the carriers require the use of radiographic guidance in
                  their LCD, only one carrier in 2006 used an imaging edit to auto-deny
                  facet joint injection claims billed without radiographic guidance.
                  Carrier staff stated that the edit for radiographic guidance addresses
                  two potential problems: (1) a facet joint injection billed without
                  radiographic guidance indicates that it was not performed with
                  guidance, which could put the patient at risk; and (2) without
                  radiographic guidance, the procedure might have been a trigger point
                  injection, a lower paying pain management service.
                  Several carriers also created unique claims processing edits. For
                  example, one carrier created an edit to deny any facet joint injection
                  service billed on the same day as another pain management service.
                  Another carrier created an edit that automatically suspends all claims
                  with add-on facet joint injection codes for manual review because of an
                  identified issue with add-on codes being billed to represent bilateral
                  services.
                  Other safeguards. Carrier staff did not report frequent use of other
                  safeguards for facet joint injections, such as provider education and
                  medical review. Carriers reported that their routine data analysis did
                  not identify specific outliers in the data for these services. As a result,
                  only three carriers conducted provider education and medical reviews
                  for facet joint injections.



OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   16
F   I N D I N G        S



                  Carrier staff identified complexities to creating frequency limits for facet
                  joint injections
                  Generally, carriers use LCDs and edits to protect the integrity of
                  Medicare payments and control utilization for vulnerable services.
                  Establishing frequency limits in LCDs and corresponding edits to
                  enforce those limits is a common technique. However, carrier staff
                  identified complexities that make frequency limits harder to implement
                  for facet joint injections.

                  Staff at two-thirds of carriers identified barriers to implementing
                  frequency limits for facet joint injections. First, one-third identified the
                  lack of agreement in the medical community about appropriate
                  frequency for facet joint injections as a barrier to creating LCDs. An
                  additional one-third mentioned difficulty creating automated edits for
                  facet joint injections.

                  Lack of consensus about appropriate frequency is a barrier to creating
                  frequency limits in local coverage determinations. Carriers rely on clinical
                  standards in the medical community to support specific guidelines in
                  LCDs. However, the medical community has not yet established a body
                  of evidence-based medicine to support frequency standards for facet
                  joint injections. In the absence of clear standards in the medical
                  community, carriers must search for consensus among physicians who
                  perform the services. Reaching consensus is often challenging given
                  that many different provider specialties perform facet joint injections
                  and have varying opinions about the appropriate frequency.

                  Four carriers have successfully reached consensus on frequency limits
                  and enforce those limits with automated edits. Staff at one carrier,
                  however, reported that the limits were too high to identify potential
                  problems.

                  Frequency edits for facet joint injections are difficult to automate. Carrier
                  staff report that even if they were able to establish frequency limits in
                  their LCD, automated prepay frequency edits are inherently difficult for
                  facet joint injections. Many of the automated edits require information
                  that is not currently available on Medicare claims.

                  Specifically, carriers are not able to establish frequency edits that rely
                  on spinal level. Currently, the CPT and the claim do not distinguish
                  spinal level. The CPT code indicates what region of the spine is
                  injected, such as lumbar/sacral. However, the CPT code does not
                  indicate which spinal level within that region was injected (such as


OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   17
F   I N D I N G        S           





                  C5-C6). Without this information on the claim, carriers cannot create
                  specific frequency edits based on spinal level.

                  Claims do not have enough information for carriers to distinguish a
                  diagnostic injection from a therapeutic injection, which affects the
                  accuracy of frequency edits. Physicians generally do not perform
                  diagnostic injections more than once, while therapeutic injections may
                  be repeated multiple times. Even with a specific frequency standard in
                  an LCD for each, carriers would have difficulty editing for these services
                  because claims do not indicate whether the service is being performed
                  for diagnostic or therapeutic purposes.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   18
Δ   R E C O M M E N D A T I O N S




                  Sixty-three percent of Medicare facet joint injection services in 2006 did
                  not meet program requirements, resulting in approximately $96 million
                  in improper payments to physicians and $33 million to facilities.
                  Although carriers have LCDs and claims processing edits for these
                  services, they will likely continue to experience problems safeguarding
                  these services until there is a comprehensive body of medical evidence
                  and consensus in the medical community about facet joint injections.

                  Based on the results of our review, CMS should:
                  Strengthen Program Safeguards To Prevent Improper Payment for Facet
                  Joint Injection Services
                  To strengthen program safeguards, CMS could:
                  Assist carriers in developing ways to scrutinize claims for facet joint injection
                  services provided in an office setting. As error rates were significantly higher
                  in an office setting than a facility, carriers may be able to identify
                  problematic claims by examining place of service.
                  Encourage carriers that require radiographic imaging guidance in their LCDs to
                  implement automated edits for imaging guidance. Carriers that require
                  radiographic imaging in their LCDs should implement automated edits for
                  imaging guidance if they have not already done so. The edit would auto-
                  deny any facet joint injection claim submitted without imaging guidance
                  by checking for the procedure code(s) associated with radiographic imaging
                  guidance.
                  Direct carriers to revisit frequency limits in their LCDs for facet joint injections.
                  Carriers should revisit the frequency limits in their LCDs and update
                  them so that they are as effective as possible. Carriers that currently have
                  frequency edits for facet joint injections could revisit quarterly claims data
                  to determine edit effectiveness.

                  CMS bases current MUE limits for facet joint injections on previous billing
                  patterns, which could be inflated because of inappropriate payments.
                  These limits are not sufficient to identify inappropriate claims for facet
                  joint injections.
                  Clarify Billing Instructions for Bilateral Services
                  CMS should clarify billing instructions for bilateral services and recover
                  funds if appropriate. CMS should address the fact that some providers
                  obtain higher reimbursement than allowed by billing add-on codes to
                  represent bilateral service. CMS could accomplish this through a
                  variety of mechanisms: educating providers, issuing program

OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   19
  R   E C O       M M E N D A T                              I O N              S



                   memorandums, and encouraging carriers to flag add-on codes for
                   additional review. Correct billing for bilateral services could result in
                   cost savings.
                   Take Appropriate Action Regarding the Undocumented, Medically
                   Unnecessary, and Miscoded Services Identified in Our Sample
                   We have forwarded information on these services to CMS.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS described steps that it will take to address our recommendation to
                   strengthen program safeguards for facet joint injection services. CMS
                   agreed with our recommendations to clarify billing instructions for
                   bilateral services and to take appropriate action on services paid in
                   error in our sample.

                   To strengthen program safeguards for facet joint injections, CMS plans
                   to direct carriers to review claims data, particularly for services
                   performed in office settings, and establish additional safeguards as
                   necessary. CMS also plans to encourage carriers to consider automated
                   edits for radiographic imaging where it is already required in their
                   LCD. Finally, CMS expects that frequency limits will be addressed by
                   the annual review of LCDs and by the Medicare Administrative
                   Contractors (MAC) during contract consolidation.

                   We continue to recommend that CMS instruct MACs and remaining
                   carriers specifically to revisit frequency limits for facet joint injections
                   during annual reviews or during MAC consolidation. Without specific
                   instruction by CMS, carrier annual reviews and MAC consolidation
                   might not address the frequency recommendation in this report.
                   Further, MAC reconciliation of LCDs could lead to less restrictive
                   frequency limits. CMS comments describe how MACs reconcile varying
                   frequency limits in LCDs and follow either the most clinically
                   appropriate or the least restrictive requirement. However, without
                   medical community consensus on the clinically appropriate frequency
                   for facet joint injections, MACs may default to the least restrictive
                   requirement which, in some cases, could be no limit. At the time of our
                   study, 7 of 15 carriers did not have frequency limits in their LCDs.

                   To clarify billing instructions for bilateral services, CMS will issue a
                   Medicare Learning Network Matters article to educate providers on the
                   proper use of add-on codes and the bilateral modifier.


OEI-05-07-00200    M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   20
 R   E C O        M M E N D A T                              I O N              S




                    To address the services paid in error in our sample, CMS will review the
                    claims data and direct Medicare contractors to review the claims and
                    initiate appropriate recoveries of potential overpayments.

                    For the full text of CMS’s comments, see Appendix D.




OEI-05-07-00200     M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   21
Δ   A P P E N D I X ~ A



                            Detailed Methodology
                            Sample Selection
                            The population from which we sampled consisted of all the allowed
                            physician services in the Centers for Medicare & Medicaid Services
                            National Claims History (NCH) file for Current Procedural
                            Terminology (CPT) codes 64470, 64472, 64475, and 64476 performed
                            in 2006. We excluded services with allowed amounts less than
                            $15 to avoid performing a medical record review on low-dollar
                            claims.31 The population consisted of 1,072,841 services that
                            represented $202,671,303 in allowed physician payments. We
                            stratified the population based on place of service and
                            Medicare-allowed amounts. The strata included services with low
                            and high allowed amounts performed in physician offices, hospital
                            outpatient departments, and ambulatory surgical centers (ASC).
                            We took a stratified, simple random sample of 660 line items32 and
                            excluded 6 services because of ongoing investigations by the Office of
                            Inspector General (OIG). Our final sample included a total of 654
                            services. Table 8 shows the six strata and the number of services in
                            each stratum.



          Table 8: Population Count and Sample Size by Strata

                                                                                                                            Number of
                                                                                                 Number of Services in      Services in
          Stratum                              Medicare-Allowed Amount                                     Population          Sample
          1 – Office                                       Greater than $300                                     242,806           108
                                                Greater than $15 and less
          2 – Office                                                                                             412,213           108
                                                    than or equal to $300
          3 – Hospital Outpatient                          Greater than $100                                      50,916           109
                                                Greater than $15 and less
          4 – Hospital Outpatient                                                                                170,891           110
                                                    than or equal to $100
          5 – ASC                                          Greater than $100                                      48,653           110
                                                Greater than $15 and less
          6 – ASC                                                                                                147,362           109
                                                    than or equal to $100
             Total                                                                                              1,072,841          654
        Source: OIG sample stratification, 2008.




                             31 These services represent less than 1 percent of the population.
                             32 Hereinafter, line items will be referred to as services.




OEI-05-07-00200          M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S                             22
A   P   P E N D    I X ~             A


                  Data Collection
                  We used a contractor to conduct the medical record request and
                  review. We requested, by mail, complete medical records and
                  documentation from physicians for each of the 654 sampled services.
                  We specified that physicians should include the following when
                  available: initial patient evaluation and exam, test results,
                  radiographic evidence of needle placement, and procedure notes. For
                  additional context, we also requested that physicians furnish all
                  documentation for services provided to the beneficiary 4 months
                  before and 1 month after the sampled date of service.

                  We classified physicians for eight services as nonresponders. A
                  nonresponder is a provider with whom no successful contact has been
                  made after at least three written contacts and two phone calls. The
                  final request letters were sent by certified mail. We based our review
                  on the remaining 646 line items, corresponding to a 99-percent
                  response rate.

                  Test review. To test our review instrument and ensure uniformity
                  among the reviewers, we conducted a preliminary medical review of
                  12 services. These services were randomly sampled from the same
                  population from which we drew our final sample using the same
                  stratification.33 We analyzed the results of the test review and
                  presented them to the reviewers. Reviewers resolved inconsistencies in
                  the results and suggested changes to the review instrument. Some of
                  these changes were incorporated into the final review instrument.
                  Data Analysis

                  Calculation of improper physician payments. We calculated the total actual
                  and projected dollars paid in error for these services. For services that
                  were not medically necessary, insufficiently documented, or not
                  documented, we counted the entire Medicare-allowed amount as improper
                  and projected the amount paid in error. For services with a coding error,
                  we determined if the error was a Medicare underpayment, overpayment,
                  or had no effect on payment. We calculated the total net difference for all
                  services with a coding error and projected it to the population of facet joint
                  injection services in 2006. The only overpayments and underpayments
                  included in the projection are cases for which we could calculate the exact
                  amount overpaid or underpaid. We were able to calculate the exact


                      33 This sample was drawn separately from the sample used for our review.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   23
A   P   P E N D    I X ~             A


                  amount overpaid or underpaid for 137 of the 173 miscoded services. We
                  were unable to calculate exact amounts for 36 services. Of the 36 services,
                  20 were for overpayments, 4 were for underpayments, and 12 were for
                  services that had no effect or an unknown effect on payment. For services
                  for which we could not determine the exact amount, we assumed there was
                  no effect on payment. As a result, the projected overpayment is a
                  conservative estimate.

                  Calculation of improper facility payments. In addition, we calculated and
                  projected the facility payments associated with the services that did not
                  meet Medicare program requirements. For ASC and outpatient claims, we
                  used the NCH Part B file and hospital outpatient file, respectively, and
                  matched facility claims to physician claims using the date of service, CPT,
                  and beneficiary identification. We were able to match 88 percent of
                  sampled services performed in a facility to their associated facility
                  payments.34 Finally, we projected the facility dollars associated with
                  physician services paid in error.




                      34 We matched 384 of the 485 sampled services in a facility. We were not able to match
                  the remaining facility payments to physician payments for a number of reasons, including
                  facilities failure to submit a service and incorrect coding of the place of service by the
                  physician.



OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S     24
             Δ           A P P E N D I X ~ B



                                        Confidence Intervals for Selected Estimates



   Table 9: Estimates of All Errors



  Estimate Description                                                                              Point Estimate             95-Percent Confidence Interval

  Percentage of services with any error                                                                            63.1%                       59.0%–67.2%

  Percentage of services with any documentation error                                                              38.4%                       33.8%–42.9%

  Percentage of services with no documentation                                                                     27.5%                       23.1%–31.8%

  Percentage of services with insufficient documentation                                                           10.9%                        7.8%–14.1%

  Percentage of services coded incorrectly                                                                         31.1%                       26.7%–35.4%

  Percentage of services that were not medically necessary                                                           8.1%                       5.4%–10.9%

  Percentage of services with overlapping errors                                                                   14.0%                        9.8%–18.2%

Source: Office of Inspector General (OIG) analysis of medical review results, 2008.




  Table 10: Estimates of Improper Physician Payments Associated With All Errors



  Estimate Description                                                                               Point Estimate            95-Percent Confidence Interval

  Amount allowed for services with any error                                                               $95,792,055          $84,298,604–$107,285,504

  Amount allowed for services with any documentation error                                                 $80,733,041            $69,246,854–$92,219,228

  Amount allowed for services with no documentation                                                        $58,587,140            $47,833,250–$69,341,030

  Amount allowed for services with insufficient documentation                                              $22,145,901            $14,671,642–$29,620,160

  Amount allowed for services coded incorrectly                                                            $21,391,947            $13,902,518–$28,881,376

  Amount allowed for services that were not medically necessary                                            $16,648,373             $9,919,301–$23,377,445

  Amount allowed for services with overlapping errors                                                      $22,981,307            $12,657,976–$33,304,637

Source: OIG analysis of medical review results, 2008.




            OEI-05-07-00200             M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S                                25
           A    P    P E N D             I X ~            B             





  Table 11: Estimate of Improper Facility Payments Associated With Any Error



  Estimate Description                                                                              Point Estimate            95-Percent Confidence Interval

  Amount allowed for services with any error                                                              $32,697,195            $26,899,820–$38,494,570

Source: OIG analysis of medical review results, 2008.




  Table 12: Estimates of Miscoded Services



  Estimate Description                                                                              Point Estimate            95-Percent Confidence Interval

  Percentage of miscoded services that affected payment                                                            79.0%                     71.8%–86.1%

  Percentage and amount allowed for services affecting payment                                                     81.6%                     74.6%–88.6%
  that were overpaid                                                                                      $25,063,648            $18,022,097–$32,105,198
  Percentage and amount allowed for services affecting payment                                                     18.4%                     11.4%–25.4%
  that were underpaid                                                                                      $3,671,701              $1,585,607–$5,757,794
  Percentage of overpaid services because of a bilateral billing
                                                                                                                   61.2%                     50.3%–72.1%
  error

Source: OIG analysis of medical review results, 2008.




  Table 13: Estimates of Errors and Improper Payments by Setting
                                                                                                                Point
  Error Type                                                                       Setting                   Estimate         95-Percent Confidence Interval
                                                                                      Office                       49.1%                     42.1%–56.1%
  Any Documentation Error
                                                                                    Facility                       22.2%                     17.8%–26.7%
                                                                                      Office                       30.3%                     23.8%–36.8%
  Coded Incorrectly
                                                                                    Facility                       32.2%                     27.2%–37.3%
                                                                                      Office                       10.3%                       5.9%–14.7%
  Not Medically Necessary
                                                                                    Facility                         4.9%                       2.7%–7.2%
                                                                                      Office                       71.2%                     65.4%–77.1%
  Any Error
                                                                                    Facility                       50.8%                     45.5%–56.1%

Source: OIG analysis of medical review results, 2008.




            OEI-05-07-00200            M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S                                26
Δ            A P P E N D I X ~ C



                            Specialty Error Rate in an Office Setting for Sample



Table 14: Physician Specialty Error Rate in an Office Setting for Sample

                                                            Any Error in Office*                                   Services in Office*
                                                                                                                                                 Percentage of
                                                                                                                                               Services With an
                            Specialty                  Sample                     Sample                    Sample                 Sample                 Error
Specialty                      Code                 Frequency                  Percentage                Frequency              Percentage             in Office
Neurosurgery                           14                            3                      2%                          3                1%              100%
General Surgery                        02                            1                      1%                          1                0%              100%
Pathology                              22                            1                      1%                          1                0%              100%
Nurse Practitioner                     50                            1                      1%                          1                0%              100%
Emergency Room                         93                            1                      1%                          1                0%              100%

Physician Assistant                    97                            1                      1%                          1                0%              100%
General Practice                       01                          36                     25%                          37                18%               97%
Internal Medicine                      11                          13                       9%                         15                7%                87%
Family Practice                        08                            7                      5%                          9                4%                78%
Neurology                              13                            8                      6%                         11                5%                73%
Rheumatology                           66                            5                      4%                          7                3%                71%

Pediatric Medicine                     37                            2                      1%                          3                1%                67%
Orthopedic Surgery                     20                            9                      6%                         14                7%                64%

Anesthesiology                         05                          30                     21%                          48                23%               63%
Pain Management                        72                          14                     10%                          25                12%               56%
Physical Medicine
                                       25                            8                      6%                         15                7%                53%
and Rehabilitation
Interventional Pain
                                       09                            2                      1%                         17                8%                12%
Management
Diagnostic
                                       30                            0                      0%                          1                0%                 0%
Radiology
Source: Office of Inspector General analysis of medical review results, 2008.
* Figures are based only on the sample and are not projected to the population.




OEI-05-07-00200             M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S                                         27
Δ         A P P E N D I X ~ D



     Agency Comments




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   28
A   P   P E N D       I X ~           D




    OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   29
A   P   P E N D       I X ~           D




    OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   30
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas Komaniecki, Deputy Regional Inspector
                  General.

                  Laura Kordish served as the team leader for this study and Kelly
                  Sullivan Waldhoff served as the lead analyst. Other principal Office of
                  Evaluation and Inspections staff from the Chicago regional office who
                  contributed to this report include Nicole Hrycyk; central office staff who
                  contributed include Doris Jackson, Sandy Khoury, Megan Ruhnke, and
                  Barbara Tedesco.




OEI-05-07-00200   M E D I C A R E PAY M E N T S   FOR   FA C ET JO I N T I N J EC T IO N SE RV I C E S   31
